<html>
<title> - DENOUNCING THE USE OF CIVILIANS AS HUMAN SHIELDS BY HAMAS AND OTHER TERRORIST ORGANIZATIONS IN VIOLATION OF INTERNATIONAL HUMANITARIAN LAW; AND CONDEMNING THE MURDER OF ISRAELI AND PALESTINIAN CHILDREN IN ISRAEL AND THE ONGOING AND ESCALATING VIOLENCE IN THAT COUNTRY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






  DENOUNCING THE USE OF CIVILIANS AS HUMAN SHIELDS BY HAMAS AND OTHER 
TERRORIST ORGANIZATIONS IN VIOLATION OF INTERNATIONAL HUMANITARIAN LAW; 
AND CONDEMNING THE MURDER OF ISRAELI AND PALESTINIAN CHILDREN IN ISRAEL 
        AND THE ONGOING AND ESCALATING VIOLENCE IN THAT COUNTRY

=======================================================================

                                 MARKUP

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                    H. Con. Res. 107 and H. Res. 665

                               __________

                             JULY 25, 2014

                               __________

                           Serial No. 113-208

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

88-835PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001























                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
SEAN DUFFY, Wisconsin                JOAQUIN CASTRO, Texas
CURT CLAWSON, Florida

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
DOUG COLLINS, Georgia                BRADLEY S. SCHNEIDER, Illinois
MARK MEADOWS, North Carolina         JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts
SEAN DUFFY, Wisconsin                GRACE MENG, New York
CURT CLAWSON, Florida                LOIS FRANKEL, Florida























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H. Con. Res. 107, Denouncing the use of civilians as human 
  shields by Hamas and other terrorist organizations in violation 
  of international humanitarian law..............................     2
  Amendment in the nature of a substitute to H. Con. Res. 107 
    offered by the Honorable Ileana Ros-Lehtinen, a 
    Representative in Congress from the State of Florida, and 
    chairman, Subcommittee on the Middle East and North Africa...     8
H. Res. 665, Condemning the murder of Israeli and Palestinian 
  children in Israel and the ongoing and escalating violence in 
  that country...................................................     5

                                APPENDIX

Markup notice....................................................    22
Markup minutes...................................................    23
Markup summary...................................................    24
 
  DENOUNCING THE USE OF CIVILIANS AS HUMAN SHIELDS BY HAMAS AND OTHER 
TERRORIST ORGANIZATIONS IN VIOLATION OF INTERNATIONAL HUMANITARIAN LAW; 
AND CONDEMNING THE MURDER OF ISRAELI AND PALESTINIAN CHILDREN IN ISRAEL 
        AND THE ONGOING AND ESCALATING VIOLENCE IN THAT COUNTRY

                              ----------                              


                         FRIDAY, JULY 25, 2014

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 9:48 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order.
    We meet today pursuant to notice to mark up two bipartisan 
measures. As your offices were previously notified, it is the 
intent of the Chair to consider the following items en bloc. 
And members will have before them, you have in your packet, 
House Concurrent Resolution 107, Denouncing the use of 
civilians as human shields by Hamas and other terrorist 
organizations in violation of international humanitarian law; 
number two, House Resolution 665, Condemning the murder of 
Israeli and Palestinian children in Israel and the ongoing and 
escalating violence in that country; and thirdly, Ros-Lehtinen 
amendment in nature of a substitute to House Con. Resolution 
107, which was provided to your offices yesterday.
    Without objection, these items are considered as read. And 
will be considered en bloc.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Ms. Ros-Lehtinen. After I recognize myself and the ranking 
member to speak on these measures, I will be glad to recognize 
other members who also seek recognition.
    Without objection, all members may have 5 days to submit 
statements for the record on today's business.
    The Chair now recognizes herself for her opening statement.
    Today we have before us two timely and important 
resolutions. The first is House Concurrent Resolution 107, 
which I introduced alongside with our ranking member, 
Congressman Ted Deutch of Florida, that denounces the use of 
human shields by Hamas and other terrorist organizations. The 
second is the House Resolution 665, authored by David McKinley 
of West Virginia and our Middle East and North Africa 
Subcommittee colleague from California, Mr. Juan Vargas. Their 
resolutions condemn last month's murder of the three Israeli 
teens, and Eyal, Gilad, and Naftali by members of Hamas, and 
the murder of Palestinian teen Mohammed Abu Khedair by Israeli 
extremists and the escalation of violence.
    It should be noted that while Israeli authorities move 
swiftly to arrest three suspects in Mohammed's murder, Eyal, 
Gilad, and Naftali's murderers are still roaming free, yet to 
be brought to justice.
    But these measures are significant and their timing is not 
an accident. In light of the recent events that have transpired 
in Israel and Gaza over the past month and a half, it is 
extremely vital that the United States Congress serves as a 
counterweight to those who seek to delegitimize Israel by 
pushing a false moral equivalency measure. Make no mistake, 
there is no equivalency whatsoever between Israel and Hamas, a 
United States designated terrorist organization.
    We need look no further than the mockery that is the United 
Nations Human Rights Council (UNHCR) to see the dangers of 
these efforts to delegitimize Israel. Just 2 days ago, that 
council passed a resolution to form a commission of inquiry 
into what it called war crimes and human rights violations by 
Israel in Gaza. It should come as no surprise to any of us of 
the one-sidedness of the UNHCR--and this is the same body that 
gave us the deeply flawed and unabashedly biased anti-Israel 
Goldstone Report in 2009.
    Yet remarkably, there was no mention of Hamas' 
indiscriminate rocket attacks on innocent Israeli civilian 
populations. But surely firing rockets into Israel and placing 
missile batteries in densely-populated areas and near schools, 
near hospitals, near mosques would merit a mention? Or perhaps 
using men, women, and children as human shields to protect 
militants and their rockets would draw the proper amount of 
outrage? No. Not a word.
    But this has been the standard operating procedure of the 
UNHCR. It has been an anti-Semitic, anti-Israel pro-terror 
group for far too long. There must be some member nations on 
that body that would have had the moral outrage that we in 
Congress feel and that they would have voted against such a 
resolution. Alas, the United States was the lone voice of 
reason. The only Nation willing to say that we do not support 
this, that this is completely insane.
    Where were our European allies? Those European countries 
that always tell us how much more enlightened they are than us. 
Deafeningly silent. They couldn't even stand by the courage of 
their convictions and vote either for or against the measure. 
No. They all abstained from voting. Perhaps thinking they took 
the moral high ground. But theirs is the worst crime of all, 
their refusal to stand up for what is right.
    So here we are again, another UNHCR one-sided inquiry that 
will do nothing but embolden Hamas because Hamas sees this and 
it thinks that the world supports what it is doing.
    I commend the U.S. Representative to the UNHCR for standing 
up against the resolution this week. Ambassador Harper rightly 
said that this vote will undermine achieving all of our 
objectives to end the hostilities and bring peace to the 
troubled region and acknowledge that once again, the council 
fails to exhibit any semblance of balance.
    If the council truly cared about human rights, it would 
condemn Hamas' use of human shields and its indiscriminate 
rocket attacks against Israel. It would take a look at Hamas' 
call for citizens to ignore Israeli warnings to evacuate, or 
Hamas' insistence that Palestinians stand on their roofs to 
prevent an attack, putting the citizens directly in harm's way. 
And the council would call upon Hamas to accept a ceasefire, 
which I believe it has now refused to accept, at least three of 
the four of those attempts at a ceasefire, while Israel has 
accepted each one of them.
    It would launch an inquiry into Hamas and its supporters, 
like supposedly our U.S. ally, Qatar. Not only is Qatar a major 
benefactor of Hamas, but it has also been working actively to 
undermine Egyptian and other Nations' ceasefire efforts, 
further embolding Hamas.
    Qatar, the same question that we entrusted to watch over to 
the Taliban 5 that has been supporting terrorists and radicals 
all across the globe and offers them sanctuary. Qatar, the same 
country that we just signed an $11 billion arms deal with, $11 
billion, is the very same country that serves as Hamas' 
mouthpiece through Al Jazeera, airing Hamas propaganda that 
then gets broadcast to the world.
    Perhaps that is something the UNHCR could look into. But it 
won't, because it doesn't fit nicely into its agenda. And that 
is why passing these two measures will send a strong message 
that we will not allow Israel's enemies to undermine the 
security of our democratic ally or its legitimacy, but that we 
will continue to support Israel and do whatever is necessary to 
help it eliminate the terrorist threat, be it Hamas or 
Hezbollah or any other group.
    I urge my colleagues to support these measures before us 
today.
    And now I will turn to our ranking member, Congressman 
Deutch, for his remarks.
    Mr. Deutch. Thank you, Madam Chairman. I want to thank you 
for moving forward on these timely and important resolutions 
today. And I extend my sincere gratitude to you for being a 
tremendous partner in our joint effort, House Concurrent 
Resolution 107, denouncing Hamas' use of civilians as human 
shields.
    I want to recognize Mr. Vargas for his work on House 
Resolution 665, condemning the murder of Israeli and 
Palestinian children in Israel and the ongoing escalation of 
violence.
    Chairman Ros-Lehtinen and I were in Israel the night the 
world learned the tragic fate of the three Israeli teens, Eyal, 
Gilad, and Naftali. We mourned with the families and the tens 
of thousands of others at their joint funeral. And we were 
there just days later when 16-year-old Mohammed Abu Khedair was 
brutally and tragically murdered.
    In the wake of these heartbreaking deaths, violence 
escalated as Hamas began indiscriminately launching rockets to 
southern Israel and then central Israel, Tel Aviv, and 
Jerusalem. Thanks to the Iron Dome missile defense system, 
hundreds of thousands of Israeli lives have been saved. Israel 
has the right to defend her people against these attacks. And 
she can't be criticized for making the investments in Iron Dome 
to save her citizens while Hamas continues to invest in rockets 
aimed at killing Israeli citizens.
    In the week since the start of Operation Protective Edge, 
Israel has uncovered numerous plots by Hamas to infiltrate 
Israel via terror tunnels and to launch attacks on Israeli 
civilians. I ask you to imagine what you would want your 
country to do if rockets were raining down on your hometown. If 
tunnels were built under your house, your children's nursery, 
your grandfather's senior center for the sole purpose of making 
it possible to pop up in those places and slaughter the people 
who live there.
    As President Obama said, no Nation should accept rockets 
being fired into its border or terrorists tunneling into its 
territory.
    Look, we all mourn the loss of innocent life to both sides 
of this conflict. It is tragic. But it is Hamas, a U.S. and 
European Union designated terrorist organization, terrorist 
army, that is embedding its terrorist infrastructure in densely 
populated civilian areas.
    As Israel makes every attempt to warn of incoming strikes 
via phone calls, text messages, and leaflet drops, Hamas 
spokesmen go on TV and encourage civilians to stay in their 
homes to act as human shields. Hamas hides rockets in schools. 
In the past week, rockets were found in two U.N. schools. It 
hides them in mosques. There was a Washington Post report on 
July 17, when it witnessed a group of men in a mosque in 
northern Gaza seen moving small rockets into the mosque.
    Madam Chairman, I know that emotions run high on both sides 
of this conflict. But there is no path that leads to peace and 
a Palestinian state living side by side with the Jewish State 
of Israel that includes Hamas. The greatest impediment to peace 
for everyone who wants peace in the region, the greatest 
impediment to peace between Israel and the Palestinians is 
Hamas, whose charter is founded on the destruction of the State 
of Israel.
    President Bill Clinton said in an interview this week, 
Hamas was perfectly well aware of what would happen if they 
started raining rockets in Israel. They fired 1,000 of them. 
And they have a strategy designed to force Israel to kill their 
own civilians so that the rest of the world will condemn them.
    It is Hamas that chose to invest money in underground 
bunkers for its leaders and terror tunnels and rocket launchers 
instead of investing in jobs and schools and healthcare for the 
people of Gaza. The siege that people like to talk about in 
Gaza has been brought about on the people of Gaza by Hamas. And 
it is Hamas that uses its own people as human shields to 
protect these rocket launchers.
    The use of civilians to protect military objectives is a 
direct violation of the Geneva Conventions. Look, this week, 
just this week, we heard from a Hamas spokesman. If there is 
any question about what is really happening here, we heard this 
statement. He said, we will keep tormenting Zionists until the 
last Zionist leaves the soil of Palestine, all of Palestine. 
Any calm is temporary, periodic calm. We don't talk about a 
long-term peace agreement. Calm in a resistance dictionary 
means preparation for the next war. The resistance will keep 
developing, manufacturing, and stocking its arsenals with new, 
surprising components for the next wars until the Zionist enemy 
leaves our country and all our land.
    That is the Hamas spokesman.
    It is really simple, Madam Chairman. Any responsible Nation 
that values human rights must condemn deplorable actions of 
Hamas and other terrorist groups. And the U.N. vote this week? 
Take a look at the 29 countries who voted to focus on Israel 
instead of the country that is launching rockets and launching 
terror attacks. Tell me about the great concern that human 
rights that Cuba and Venezuela have as they voted for that 
resolution.
    Madam Chairman, I want to thank you for your commitment to 
bringing these bills forward in a bipartisan manner. And I hope 
that we have the opportunity as this--as this bill goes further 
to further delve into what is a very simple and straightforward 
proposition. That if you believe in human rights, if you 
believe in democracy, then you must support Israel's right to 
defend itself and you must condemn Hamas.
    And I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch.
    Now I am pleased to recognize in the order you came in, Mr. 
Schneider of Illinois is recognized.
    Mr. Schneider. Thank you, Madam Chairman. And I am very 
proud to join today and strongly rise to speak in support of 
both House Concurrent Resolution 107, condemning Hamas' use of 
human shields, and House Resolution 665, condemning the 
measured of the four young people last month.
    Speaking first to the human shields. In the 90 years since 
Israel withdrew completely from Gaza, evacuating 9,000 
Israelis, Hamas and other groups in Gaza have launched over 
9,000 rockets. This month alone, over 2,000 rockets intended to 
kill civilians and terrorize virtually every Israeli city, 
town, and village, have been launched from Gaza.
    Thankfully, Israel has developed, with the support of this 
U.S. Congress and the American people, the Iron Dome defense 
system, changing the calculus on the ground. Israel is doing 
all it can to protect her citizens from Hamas rockets.
    Conversely, Hamas is using the people of Gaza to protect 
the rockets and rocket launchers.
    I fully support Israel's right to defend her citizens, to 
do what is necessary to eliminate the threat of rockets and the 
threat of terror tunnels dug under the ground into Israeli 
territory.
    This resolution condemning the use of human shields, 
clearly a violation of international humanitarian law, is a 
strong statement that human shields cannot be used and Israel 
must be allowed to defend herself. Hamas is a terrorist 
organization. Hamas must be prohibited from using rockets to 
terrorize Israel and human shields to defend those rockets.
    Let me also speak to the resolution condemning the callous 
murder of youths, whether it is boys Naftali, Gilad, or Eyal, 
or boys named Mohammed.
    The clear distinction is that after the murder of Mohammed, 
Israel authorities quickly condemned the murder of the young 
man, arrested, and are prosecuting the perpetrators. As I 
stated before, the two murderers believed to have killed the 
three young Israelis remain at large, and too many people are 
unwilling to condemn the murder of Naftali, Gilad, and Eyal. We 
stand together in support of the families. We stand--I stand in 
support of Israel's right to defend herself, and I am proud to 
stand and support both of these resolutions.
    I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Schneider.
    Mr. Chabot of Ohio is recognized.
    Mr. Chabot. Thank you, Madam Chair. And I want to express 
to my support for both resolutions being considered this 
morning, H. Res. 665, Condemning the murder Israeli and 
Palestinian children and the ongoing and escalating violence in 
that country, and H. Con. Res. 107, Denouncing the use of 
civilians at human shields by Hamas and other terrorist 
organizations in violation of international humanitarian law.
    I especially want to express my strong support for Israel's 
right to defend its territory from attacks by Hamas terrorists.
    Since the start of Operation Protective Edge a little more 
than 2 weeks ago, more than 2,000 rockets have been launched 
against Israel from Gaza, from Syria, from Lebanon, and from 
Sinai, endangering of the lives of some 6 million Israelis. Yet 
if we listened to Hamas spokesmen, Hamas apologists in the news 
media, and in the anti-Israeli cabal in the U.N., we would be 
led to believe that Israel has been the aggressor. Meanwhile, 
Hamas exposes its own people to danger by launching strikes 
from civilian neighborhoods near hospitals, near mosques, near 
schools. There were even published reports earlier this week of 
Hamas terrorists using ambulances as getaway cars.
    This is a critical time in Israel's history. And it is 
imperative that we continue to stand beside our friend and 
ally. This subcommittee, by acting on these resolutions today, 
is sending a strong message, I believe, both to Hamas and to 
Israel. And I urge support of this resolution.
    And I want to thank you, Madam Chair, for ensuring that our 
message will be heard.
    I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Chabot.
    Ms. Frankel of Florida is recognized.
    Ms. Frankel. Thank you, Madam Chair. And I want to thank my 
colleagues for bringing these resolutions and for their very 
eloquent remarks this morning. I support both resolutions.
    Madam Chair, this week the United Nations found dozens of 
Hamas rockets stored in two separate children's schools in 
Gaza. These rockets are identical to the rockets that Hamas 
uses to terrorize millions of Israelis. And this serves as a 
reminder of what we already know. It is Hamas that is 
responsible for the terrible loss of life both in Israel and 
Gaza. Hamas embeds its weapons and launchers in schools in 
houses and mosques and hospitals. While Israel uses Iron Dome 
rockets to protect its citizens, Hamas uses citizens to protect 
its rockets. So we watch the news and we see the heart-
wrenching images from Gaza and Israel. Remember, it is Hamas 
who is to bear the blame.
    And I thank you, Madam Chair.
    And I yield back.
    Ms. Ros-Lehtinen. Thank you, ma'am.
    Mr. Cotton not of Arkansas is recognized.
    Mr. Cotton. Hamas must be destroyed. The Gaza Strip is run 
by a rat's nest terrorist organization and has been for years. 
These terrorists have no regard for human life. They commit 
double war crimes every day by firing rockets and missiles and 
mortars at Israeli citizens, which they cite at the homes and 
the mosques and the hospitals and the churches of their 
civilians. They invade Israel through tunnels, which must also 
be destroyed because they are committing war crimes by wearing 
Israeli uniforms to kill Israeli soldiers and Israeli citizens.
    The Israeli defense force is the most moral humanitarian 
fighting force in the world alongside with the Armed Forces of 
the United States. And rather than try to pressure Israel in 
any way, the United States should be standing by Israel along 
with so many other Middle Eastern governments in their efforts 
to destroy Hamas.
    I am proud to support these resolutions, and I will 
reiterate that Hamas must be destroyed.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Vargas of California is recognized.
    Mr. Vargas. Thank you very much, Madam Chair. And I want to 
thank you for bringing these resolutions forward, and 
especially for the bipartisan nature. You can see we all agree 
on these issues.
    Israel has the right and really the moral obligation to 
defend itself. It can't sit idle as missiles rain down on their 
citizens. And so it has acted. And it has acted in a way not 
only to defend itself, but attempt to protect innocent life on 
both sides. Israeli soldiers have died in this process 
protecting civilians in of the Gaza Strip. And people should 
talk about that. I mean, this a very moral force that is in 
Gaza. The Israelis have gone out of their way, not only 
leafleting, but calling, letting people know, get out of the 
house.
    Hamas has said, no. Bare your chest. Take those missiles 
on. Hamas has purposely put in these human shields to try to up 
the count of civilians that die. And so we have to stand 
strongly with Israel at this moment. We always should. I am 
very proud of the United States and the actions that it took at 
the United Nations the other day. I am very proud of our 
government. We have to continue to stand by Israel in this 
moment.
    And I also want to thank Israel for not only capturing the 
murderers of the young Palestinian who was murdered, Mohammed 
Abu Khedair, 16 years old, but also condemning in the strongest 
way the murder of any person. In Israel, these people that 
murdered him were called terrorists and murderers as they 
should. Yet the murderers that killed the three Israeli teens 
are called heroes. That I think is the big difference. They 
haven't been captured. They haven't been condemned. Instead, 
they have been treated like heroes, and they have been allowed 
to run around and been hidden by the Palestinian authorities 
and others.
    So I want to thank, again, Israel for not only condemning 
the murder of the 16-year-old but also showing its moral 
courage and going after them, the people who perpetrated the 
crime and saying, these are the guys and, yes, they are part of 
our citizenry and, yes, they are murderers. I wish the 
Palestinians would do the same thing. And you don't see that.
    So again, thank you very much for bringing this forward, 
Madam Chair. I appreciate it very much, and I appreciate the 
bipartisan nature. Thank you.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Vargas.
    And always leaving the best for last, Mr. Connolly of 
Virginia.
    Mr. Connolly. Thank you, Madam Chairman. And thank you and 
the ranking member for bringing these two resolutions before 
us.
    Today we consider those two resolutions. First, H. Res. 
665, which condemns the murder of Israeli and Palestinian 
children and the escalating violence in Israel.
    The death that Mr. Vargas just referred to touched home in 
my district. Mohammed Khedair is the cousin of one of my 
prominent constituents. And that tragedy has touched our 
community, our Palestinian community, particularly in Northern 
Virginia, very hard.
    But I echo the sentiments of Mr. Vargas. The sharp contrast 
between the fact that the Israeli justice system is prosecuting 
and pursuing those who perpetrated that murder is in sharp 
contrast to the absolute lack of a justice system and lack of 
any even semblance of adjudication and prosecution for the 
murder of three Israeli young people is for all the world to 
see.
    The sound of sirens in Israeli cities warning of rockets 
overhead and images of the growing humanitarian crisis now in 
Gaza should strengthen, it seems to me, our resolve to end this 
current conflict and to resume our pursuit for a more lasting 
peace in Israel and Palestine. Our lesson from the crisis in 
Israel is that violence begets violence. Hamas continues to 
indiscriminately fire rockets into Israel, threatening the 
lives of Israeli citizens. Just as any sovereign Nation would, 
Israel has taken measures to protect its civilians from harm by 
targeting Hamas' operations in Gaza.
    Unfortunately, the scene in Gaza is not unfamiliar. A 
brutal terrorist organization with wanton disregard for human 
life has embedded itself in a civilian population, and it uses 
that civilian population as a shield. The result is a 
humanitarian crisis that worsens by the day. We should, it 
seems to me, do all we can to arrest this endless cycle before 
more innocent lives are lost and the gulf between Israelis and 
Palestinians only widens it further.
    I commend Secretary Kerry for his commitment to the peace 
process and for trying to bring both sides to the negotiating 
table. It is in the best interest of Israelis, the 
Palestinians, and all those who seek regional stability in 
negotiations for peace must resume.
    Hamas has now fired over 2,000 rockets into Israel proper 
since June. The rockets are poorly guided, and Hamas makes no 
distinction regarding its targets. Flights out of Israel's Ben 
Gurion Airport were recently disrupted when a rocket detonated 
near that airport. Given this constant threat from above, 
Israel has taken measures to mitigate risks to its civilian 
population.
    The Iron Dome system has had an 86-percent success rate in 
intercepting missiles destined for Israeli population targets. 
Consistent with the United States' close relationship with 
Israel and our commitment to its self defense, we have provided 
$1 billion toward the development of that successful system. 
This doesn't even include the $351 million that was included in 
the Fiscal Year 2015 National Defense Authorization Act that 
passed the House in June.
    Israeli defense forces have also launched Operation 
Protective Edge, sending ground troops into the Gaza to disrupt 
Hamas' rocket capability and to shut down tunnels that have 
been used for terrorism.
    Because Hamas has intermingled its military operations with 
civilian populations as part of its strategy to evade discovery 
and engagement by the IDF, there have been civilian casualties, 
far too many, in Gaza along with the worsening humanitarian 
crisis.
    The United Nations agency for Palestinian refugees 
discovered itself Hamas rockets in a school next to a shelter 
for 3,000 Palestinian residents. Civilians are caught in the 
crosshairs of this conflict, subjected to violence, and cut off 
from resources or any semblance of normal life.
    It is with this in mind that I hope all of us will urge an 
expedited return to the negotiating table. For those who once 
criticized Secretary Kerry's attempts at reviving the peace 
process, what is the alternative? It is a region embroiled in 
endless conflict and misery, and a fate none of us want to find 
acceptable for the Middle East.
    Thank you again for your leadership, Madam Chairman, and 
that of yours, Mr. Deutch, and I certainly look forward to 
voting for these resolutions today.
    Thank you very much.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Connolly.
    Hearing no further requests for recognition, the question 
occurs on adopting the items under consideration en bloc.
    All those in favor say aye. Aye. All opposed, no.
    In the opinion of the Chair, the ayes have it and the en 
bloc amendments are approved.
    Without objection, the items in the en bloc will be 
reported favorably to the full committee, and House Concurrent 
Resolution 107 will be reported in the form of a single 
amendment in the nature of a substitute.
    The staff is directed to make any technical and conforming 
changes.
    I want to thank all of the members and staff for their 
assistance and cooperation that went into today's markup. I 
thank you for coming.
    And with that, the subcommittee is adjourned. Thank you.
    [Whereupon, at 10:17 a.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]

</pre></body></html>
